Nos. 19-251, 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

_______________
THOMAS MORE LAW CENTER,
Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF
CALIFORNIA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
AMICUS CURIAE BRIEF OF AMERICAN CENTER FOR LAW AND
JUSTICE IN SUPPORT OF PETITIONERS
CERTIFICATE OF COMPLIANCE
Jay Alan Sekulow, a member of the Bar of this Court and an attorney for amicus,
pursuant to Rule 33.1(h), hereby certifies that the Amicus Curiae Brief of the
American Center for Law and Justice in Support of Petitioners complies with the word
limitations of Rule 33.1(h). The brief, excluding the parts mentioned in Rule 33.1(d),
contains 5,092 words, including footnotes.

s/ Jay Alan Sekulow
Jay Alan Sekulow
September 25, 2019

